 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, EDWARD 

    BYRNE MEMORIAL JUSTICE ASSISTANCE GRANT

PROGRAM, GRANTS TO THE CITY OF AURORA, COLORADO



             U.S. Department of Justice

           Office of the Inspector General

                    Audit Division


            Audit Report GR-60-13-012

                   August 2013

 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, EDWARD 

    BYRNE MEMORIAL JUSTICE ASSISTANCE GRANT

 PROGRAM, GRANTS TO THE CITY OF AURORA, COLORADO


                          EXECUTIVE SUMMARY


      The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Office of Justice Programs,
Edward Byrne Memorial Justice Assistance Grant Program (Byrne JAG
Program), Grant Nos. 2009-DJ-BX-0678, 2009-SB-B9-0430,
2010-DJ-BX-0509, and 2011-DJ-BX-2448 totaling $2,687,124, awarded to
the City of Aurora (Aurora), Colorado, as shown in Exhibit 1. Grant No.
2009-SB-B9-0430 was an American Recovery and Reinvestment Act of 2009
award.

EXHIBIT 1: GRANT AWARDED TO AURORA
                                         PROJECT       PROJECT          AWARD
   AWARD NUMBER        AWARD DATE       START DATE     END DATE         AMOUNT
  2009-DJ-BX-0678       08/27/09         10/01/08      09/30/12      $     404,700
  2009-SB-B9-0430       05/29/09         03/01/09      02/28/13          1,743,612
  2010-DJ-BX-0509       08/04/10         10/01/09      09/30/13            304,772
  2011-DJ-BX-2448       08/15/11         10/01/10      09/30/14            234,040
                                                           Total:    $ 2,687,124
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)

      The grants were awarded under the Byrne JAG Program, which allows
states, tribes, and local governments to support a broad range of activities
to prevent and control crime based on their own local needs and conditions.
Byrne JAG Program funds may be used for state and local initiatives,
technical assistance, training, personnel, equipment, supplies, contractual
support, information systems for criminal justice, and criminal justice related
research and evaluation activities.


Our Audit Approach

      The purpose of the audit was to determine whether costs claimed
under the grants were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of the audit was to review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, (4) financial status and progress reports, (5) program
performance and accomplishments, (6) grant closeout activities,
(7) property management, (8) monitoring of sub-recipients and contractors,
and (9) special grant requirements.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and grant award
documents.

      There were no recommendations resulting from the audit of Byrne JAG
Program grants awarded to the City of Aurora. Our audit objective, scope,
and methodology appear in Appendix I. We discussed the results of our
audit with the City of Aurora officials and have included their comments in
Appendix II. OJP’s response is included in Appendix III.




                                     ii
                                   Table of Contents


INTRODUCTION ................................................................................ 1

  Background.......................................................................................1

  Our Audit Approach............................................................................2

FINDINGS......................................................................................... 4

 Internal Control Environment ..............................................................4

   Single Audit....................................................................................4

   Financial Management System..........................................................4

 Drawdowns .......................................................................................5

 Grant Expenditures ............................................................................6

   Direct Costs ...................................................................................6

 Monitoring of Sub-recipients and Contractors ........................................7

   Sub-recipients ................................................................................7

   Contractors ....................................................................................7

 Grant Reporting.................................................................................8

   Financial Reporting..........................................................................8

   Performance Management Tool .........................................................8

   Progress and Program Reports..........................................................9

   American Recovery and Reinvestment Act Quarterly Reports ................9

 Award Requirements ........................................................................ 10

 Program Performance and Accomplishments ....................................... 10

   Program Objectives ....................................................................... 11

   Analysis of Program Performance .................................................... 11

 Post End Date Activity ...................................................................... 12

 Conclusion ...................................................................................... 12

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY ................. 13

APPENDIX II: AURORA’S RESPONSE TO THE DRAFT REPRORT ...... 16

APPENDIX III: OJP’S RESPONSE TO THE DRAFT REPORT .............. 17

 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, EDWARD 

BYRNE MEMORIAL JUSTICE ASSISTANCE GRANT PROGRAM,

     GRANTS TO THE CITY OF AURORA, COLORADO


                               INTRODUCTION


      The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Office of Justice Programs,
Edward Byrne Memorial Justice Assistance Grant Program (Byrne JAG
Program), Grant Nos. 2009-DJ-BX-0678, 2009-SB-B9-0430,
2010-DJ-BX-0509, and 2011-DJ-BX-2448 totaling $2,687,124, awarded to
the City of Aurora (Aurora), Colorado, as shown in Exhibit 1. Grant No.
2009-SB-B9-0430 was an American Recovery and Reinvestment Act of 2009
award.

EXHIBIT 1: GRANT AWARDED TO THE CITY OF AURORA
                                         PROJECT        PROJECT          AWARD
   AWARD NUMBER         AWARD DATE      START DATE      END DATE         AMOUNT
  2009-DJ-BX-0678        08/27/09        10/01/08       09/30/12      $     404,700
  2009-SB-B9-0430        05/29/09        03/01/09       02/28/13          1,743,612
  2010-DJ-BX-0509        08/04/10        10/01/09       09/30/13            304,772
  2011-DJ-BX-2448        08/15/11        10/01/10       09/30/14            234,040
                                                            Total:    $ 2,687,124
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)



Background

      The Office of Justice Programs (OJP), a component of the U.S.
Department of Justice, provides innovative leadership to federal, state, local,
and tribal justice systems, by disseminating state-of-the-art knowledge and
practices across America, and providing grants for the implementation of
these crime fighting strategies. The OJP works in partnership with the justice
community to identify the most pressing crime-related challenges confronting
the justice system and to provide information, training, coordination, and
innovative strategies and approaches for addressing these challenges.

       The Byrne JAG Program allows states, tribes, and local governments to
support a broad range of activities to prevent and control crime based on
their own local needs and conditions. The Byrne JAG Program blends the
previous Byrne Formula and Local Law Enforcement Block Grant (LLEBG)
Programs to provide agencies with the flexibility to prioritize and place justice
funds where they are needed most.

      JAG funds may be used for state and local initiatives, technical
assistance, training, personnel, equipment, supplies, contractual support,
information systems for criminal justice, and criminal justice related research
and evaluation activities that will improve or enhance:

   1.   Law enforcement programs.
   2.   Prosecution and court programs.
   3.   Prevention and education programs.
   4.   Corrections and community corrections programs.
   5.   Drug treatment and enforcement programs.
   6.   Planning, evaluation, and technology improvement programs.
   7.   Crime victim and witness programs (other than compensation).

       The City of Aurora (Aurora) was incorporated as the town of Fletcher on
April 30, 1891, and renamed Aurora in 1907. With a land area of 154 square
miles, the 2010 Census identified Aurora’s population as 325,078, with the
result that Aurora is the 3rd largest city in Colorado and is now the 56th
largest city in the United States.


Our Audit Approach

      The purpose of the audit was to determine whether costs claimed under
the grants were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grant. The objective
of the audit was to review performance in the following areas: (1) internal
control environment, (2) drawdowns, (3) grant expenditures, (4) budget
management and control, (5) financial status and progress reports,
(6) program performance and accomplishments, (7) grant closeout activities,
(8) property management, (9) matching costs, (10) program income,
(11) monitoring of sub-recipients and contractors, and (12) special grant
requirements. We determined that budget management and control,
matching costs, and program income were not applicable to this grant audit.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria we
audit against are contained in the OJP Financial Guide and grant award
documents. We tested Aurora’s:




                                        2

  •	 Internal Control Environment - to determine whether the internal
     controls in place for the processing and payment of funds were
     adequate to safeguard grant funds and ensure compliance with the
     terms and conditions of the award.

  •	 Grant Award Drawdowns - to determine whether Aurora’s
     drawdowns were adequately supported and if Aurora was expending
     drawdowns timely.

  •	 Grant Award Expenditures - to determine the accuracy and 

     allowability of costs charged to the grant.


  •	 Monitoring of Sub-recipients and Contractors - to determine
     whether Aurora provided adequate oversight and monitoring of its
     sub-recipients and contractors.

  •	 Federal Financial Reports (FFRs) and Progress Reports - to
     determine whether the required FFRs and Progress Reports were
     submitted in a timely manner and accurately reflect grant activity.

  •	 Award Requirements - to determine whether Aurora complied with
     award guidelines, special conditions, and solicitation criteria.

  •	 Grant Program Performance and Accomplishments - to determine
     whether Aurora has met the grant objectives.

  •	   Post End Date Activity – to determine, for the grant that had ended,
       whether Aurora complied with post end date award requirements.

      There were no recommendations resulting from the OIG audit of Byrne
JAG Program grants awarded to the City of Aurora. Our audit objective,
scope, and methodology appear in Appendix I. We discussed the results of
our audit with the City of Aurora officials and have included their comments
in Appendix II. OJP’s response is included in Appendix III.




                                      3

                                FINDINGS

     We determined that the City of Aurora has documented policies
     and procedures related to financial and accounting functions and
     an accounting system that meets requirements. We also found
     that all transactions tested were in compliance with award
     conditions and supported. Financial and Progress Reports were
     timely and generally reflected actual grant activity and
     performance to goals and objectives. There are no
     recommendations made by the OIG in reference to the audit of
     these four Byrne JAG Program grants awarded to the City of
     Aurora.


Internal Control Environment

      We reviewed Aurora’s internal control environment, including
procurement, receiving, payment, and payroll procedures to determine
compliance with the terms and conditions of the grant award and to assess
risk. We also interviewed management and key personnel, and inspected
documents and records in order to further assess risk.

Single Audit

      The Office of Management and Budget (OMB) Circular A-133 requires
that non-federal entities that expend $500,000 or more per year in federal
awards have a Single Audit performed annually. We determined that the
most recent Single Audit of Aurora was for Fiscal Year (FY) 2011, which
ended December 31, 2011. We reviewed the audit report and found there
were no reportable matters.

Financial Management System

      We reviewed Aurora’s financial management system, interviewed
Aurora officials, and inspected grant documents. We determined that Aurora
has documented policies and procedures related to financial and accounting
functions. Financial activities for Aurora were performed internally by the
Finance Department, except for actuarial studies and annual audits.

     Aurora officials stated that it currently uses the ONESolution accounting
system by SunGard and has used this system since the late 1990’s, with the
most recent update in December 2012. It has a comprehensive set of
accounting and financial programs including general ledger, human

                                      4

resources, payroll, accounts payable, purchasing, cash receipts, fixed assets,
accounts receivable, check writing, and reporting.

       The grant manager and department staff are responsible for
administration and compliance with grant requirements. According to Aurora
officials, departments initiate purchase requisitions and the Purchasing
Department prepares the purchase order. The various financial functions are
physically and organizationally separated. Additionally, the accounting
system is password protected, has separate access levels based on function,
and has an inactivity time out feature. The system is backed up nightly with
a redundant off-site backup location. Transactions are date and time
stamped.

      The person who receives an item within the initiating department is
responsible for inspection and verification of the invoice prior to signing off
the invoice for payment. Accounts payable officials in the Finance
Department verify the vendor information and approvals before processing
for payment.

      Sufficient written policies and procedures were available, separation of
duties was adequate, and management was supportive and cognizant of the
importance of internal controls.


Drawdowns

       According to the OJP Financial Guide, 2009, recipients of block grant
awards such as the Byrne JAG Program are paid in a lump sum. One of the
special conditions in the award documents is for the grantee to establish a
trust fund account which, according to OJP officials, is intended to protect the
principal. However, Aurora opted to receive grant funds on a reimbursement
basis, as demonstrated by its history of drawdowns. Although the
requirement of the trust fund would still exist regardless of the method of
drawdown, the trust fund was not applicable since the drawdowns were in
fact a reimbursement and not a lump sum draw.

      According to the Senior Management Analyst responsible for submitting
drawdown requests and the quarterly Federal Financial Reports (FFRs),
drawdowns are requested quarterly in conjunction with the submission of the
FFR. The same support documentation is used for both the FFR and the
drawdown request. At the end of each quarter, finance system reports and
associated paperwork for grant expenditures are compiled and used as the
basis for the quarterly drawdown. Aurora uses actual expenses for its

                                        5

drawdown requests. The reimbursements are sent electronically to Aurora’s
central account and are credited to the specific grant account.

      The drawdowns were evaluated to determine if there was adequate
documentation to support each drawdown, and to determine if overall
expenditures and drawdowns generally matched to ensure there were no
excess funds on hand. We reviewed the last four drawdowns for each of the
four grants and found that while amounts in the accounting records generally
matched the drawdown requests, they did not always match exactly. This
was primarily due to adjustments made based on when items were posted in
the general ledger expense and cash accounts. However, the drawdown
packages included adequate documentation to explain any adjustments that
were made, and we were able to reconcile the records with the drawdown
amounts.


Grant Expenditures

Direct Costs

      To determine if grant funds expended were allowable, reasonable, and
in accordance with applicable laws, regulations, guidelines, and award
documentation, we tested a judgmental sample of 25 transactions from each
of the 4 grants for a total of 100 transactions. We reviewed the
documentation to determine if the expenses were approved and authorized,
within the scope of the award, properly classified in the accounting records,
properly supported with appropriate original documentation, and correctly
charged to the grant. Additionally, since these grants were largely for the
purpose of purchasing equipment and supplies, we judgmentally selected 15
items of accountable property from the 100 transactions tested for physical
inspection and verification.

      In performing the transaction tests, we did not find any discrepancies
between the items purchased and the support documentation. Furthermore,
upon physical inspection of 15 items judgmentally selected from the 100
transactions tested, we did not find any discrepancies and were able to verify
the purchases.




                                      6

Monitoring of Sub-recipients and Contractors

Sub-recipients

      Aurora had sub-recipients for each of the four grants and there was a
signed Memorandum of Understanding between Aurora and each
sub-recipient for each grant. Additionally, Aurora received the majority of
each grant, ranging from approximately 70 to 89 percent.

      According to the OJP Financial Guides, 2009-2012, direct recipients
should be familiar with, and periodically monitor, their subrecipients’ financial
operations, records, systems, and procedures. As part of the sub-recipient
monitoring process, recipients need to develop systems, policies, and
procedures to ensure that sub-recipient activities are conducted in
accordance with federal program and grant requirements, laws, and
regulations.

      According to Aurora’s Grant Guidelines, the Grant Manager is
responsible for providing regular compliance reviews and monitoring of all
sub-recipients to determine if they are in compliance with laws, regulations,
and provisions of the grant. The Research and Development (R & D)
Specialist is responsible for managing the Aurora Police Department’s (PD)
grants and any sub-recipients. The R & D Specialist stated he reviewed each
sub-recipient’s financial system and its policies and procedures regarding
accounting and purchasing practices, and ensures sub-recipient adherence to
Single Audit requirements. He also stated he requires support documents
with Quarterly Progress Reports and FFRs submitted by sub-recipients, and
performs desk reviews and periodic site visits.

      Based on the documentation provided, there was no indication of
inadequate monitoring of sub-recipients concerning sub-recipient compliance
with requirements and implementation of the program.

Contractors

      There was only one contractor involved in the four Byrne JAG Program
grants awarded to the City of Aurora, which was for Grant No.
2009-SB-B9-0430, the Recovery Act grant. The City of Aurora hired a single
contractor, interpreter/coordinator, to provide translation services for the
Aurora PD and coordinate the police department’s volunteer interpreter
program. Although this was a contractor, the contractor’s time was tracked
and paid using the financial payroll module of the finance system. The
contractor completed time cards.

                                        7

Grant Reporting

      As part of the special conditions for the four grants, the recipient
agrees to comply with all reporting, data collection, and evaluation
requirements, as prescribed by law and detailed in the Byrne JAG Program
guidance. In total, there are four reports the recipient is required to submit:
(1) the Quarterly Federal Financial Report (FFR), (2) The BJA Quarterly
Performance Measurement Tool (PMT), (3) the Recovery Act Section 1512(c)
Quarterly Report, and (4) the Annual Progress Reports for JAG grants. Each
of these reports is discussed in the following sections.

Financial Reporting

      The OJP Financial Guide, 2009, states that effective the quarter
beginning October 1, 2009, recipients must report expenditures online using
the Federal Financial Report (FFR) form, FFR-425, no later than 30 days after
the end of each calendar quarter. Recipients shall report the actual
expenditures and unliquidated obligations incurred for the reporting period on
each financial report. Also, the award recipients should report program
outlays and revenue on a cash or accrual basis in accordance with their
accounting system.

       We reviewed the last four FFRs for each grant for timeliness and
accuracy. We found that all 16 of the FFRs we reviewed were submitted
timely, and that the reports were generally accurate. Differences that we
identified between the accounting records and the amounts reported on the
FFRs were supported with documentation and adequate explanation. As
mentioned previously in discussing drawdowns, differences were generally
due to timing issues as to when the expense was recorded in the general
ledger versus when the expense was recorded in the cash account.

Performance Management Tool

      Consistent with the Government Performance and Results Act, P.L.
103-62, beginning in 2009, quarterly performance metrics reports must be
submitted through the Bureau of Justice Assistance’s (BJA) Performance
Management Tool (PMT) website no later than 30 days after the end of each
calendar quarter. The PMT reports are reported in two formats, numerical
data which is reported quarterly, and narrative which is reported annually.
The recipient submits the quarterly PMT data online to BJA through the PMT
website. Once the information is confirmed and submitted, the data is
transferred to the OJP Grants Management System (GMS). At the end of the

                                       8

4th quarter each year (September 30), the quarterly PMT reports are
combined and a narrative is added, to create the Annual Progress Report.

      We reviewed the last eight quarterly PMT reports for each of the four
grants audited, except for Grant No. 2011-DJ-BX-2448 which had only 6
reports through 2012, to evaluate them for timeliness. We found that all 30
reports that we evaluated were submitted on time. Since the Annual
Progress Report is a composite of the four quarterly PMT reports plus a
narrative presentation, we reviewed the last two Progress Reports for each
grant to evaluate accuracy, as described in the next section.

Progress and Program Reports

      According to the OJP Financial Guide, 2009, Annual Progress and
Program Reports (Progress Reports) must be submitted online through the
GMS not later than December 31st for the activities undertaken and results
achieved during the prior federal fiscal year (October 1 through September
30). The Annual Progress Reports for Byrne JAG Program grants are pro
forma documents online in GMS and show a collection of the four quarters of
PMT reports plus a narrative presentation.

      We reviewed the last two annual Progress Reports for each of the four
grants audited to evaluate the timeliness of submission and found that all
eight reports were submitted timely in accordance with the OJP Financial
Guide.

      We also reviewed Progress Reports for accuracy and content. To verify
the information in the Progress Reports, we reviewed the last two Progress
Reports submitted for each grant and compared them to the support
documents provided by Aurora officials. By comparing actual purchases from
the general ledger expense summary to the purchases and accomplishments
detailed in the Progress Reports, we were able to confirm the relative
accuracy of the reports. Based on the judgmental sample review of the
Progress Reports, we did not identify any concerns for the items tested.

American Recovery and Reinvestment Act Quarterly Reports

      According to the American Recovery and Reinvestment Act (ARRA or
Recovery Act) of 2009, P.L. 111-5, Section 1512(c), recipients of Recovery
Act funds must submit a report no later than 10 days after the end of each
calendar quarter detailing fund use and program activities. Additionally,
according to the OJP Financial Guide, for anyone who receives Recovery Act
funding, a quarterly report, which requires both financial and programmatic

                                     9

data, must be submitted within 10 calendar days after the end of each
calendar quarter. The Recovery Act Section 1512(c) report must be
submitted online through the government website.

      We initially evaluated the last two reports from ARRA Grant No.
2009-SB-B9-0430 for timeliness and found that the third quarter report for
2012 had been submitted two days late. We evaluated two additional reports
and found they were submitted on time. Based on the timely submission of
three of the four reports reviewed, we concluded the reports were generally
timely.


Award Requirements

       We reviewed the award documents to determine if there were unique
or distinctive requirements that were specific to the grantee or grant program
that Aurora was required to comply with as a condition of accepting the
awards. We found that all four grants contained typical standard language
requirements for adherence to laws, regulations, and other guidelines. Grant
No. 2009-SB-B9-0430, which was a Recovery Act grant, had additional
requirements as part of the Recovery Act. The majority of the Recovery Act
requirements were not applicable to this award, but several were applicable.

      To evaluate compliance to the special conditions of the awards, we
judgmentally selected several requirements and tested them for compliance.
These included financial and Progress Reports, Central Contractor
Registration, and Recovery Act reporting. Our review did not identify
reportable conditions for those items tested.


Program Performance and Accomplishments

      As previously mentioned in this report, the Byrne JAG Program allows
states, tribes, and local governments to support a broad range of activities
that will improve or enhance:

  1.   Law enforcement programs.
  2.   Prosecution and court programs.
  3.   Prevention and education programs.
  4.   Corrections and community corrections programs.
  5.   Drug treatment and enforcement programs.
  6.   Planning, evaluation, and technology improvement programs.
  7.   Crime victim and witness programs (other than compensation).

                                     10

Program Objectives

       For grants 2009-DJ-BX-0678, 2009-SB-B9-0430, 2010-DJ-BX-0509,
and 2011-DJ-BX-2448, we reviewed documents submitted by Aurora officials
in its application for each grant award and determined the established
objectives, depending on the award, were to:

   1.   Purchase approved items
   2.   Deploy the items
   3.   Perform necessary training on items
   4.   Hire for new positions or retain current positions
   5.   Assign duties and responsibilities to new hires
   6.   Fund an overtime project and track hours

      The first three objectives concerning the purchase of equipment were
consistent in all four awards. As shown in Exhibit 2, the majority of the
combined expenditures for all four grants were designated for equipment
purchases.

EXHIBIT 2: PLANNED GRANT FUND EXPENDITURE SUMMARY
                                                 SUB­
   COMBINED TOTALS         $2,687,124
                                               RECIPIENT        GRAND      PERCENT
ITEM                         AURORA             TOTALS         TOTALS      OF TOTAL
Personnel                  $ 221,520           $ 181,566     $ 403,086        15.0
Fringe Benefits                 61,623            55,674         117,297       4.4
Travel                             878                 -             878       0.0
Equipment                    1,661,493           446,370       2,107,863      78.4
Contracts/Consultants                -            18,000          18,000       0.7
Other Costs                     40,000                 -          40,000       1.5
TOTALS                     $1,985,514          $701,610      $2,687,124      100.0
Source: Budget Detail for grants 2009-DJ-BX-0678, 2009-SB-B9-0430, 2010-DJ-BX-0509,
and 2011-DJ-BX-2448

Analysis of Program Performance

      To evaluate program performance, we looked at the grant goals and
objectives and compared them to accomplishments and activity reported in
the annual Progress Reports.

      The primary objectives of these grants as documented in the grant
applications and as stated by grant officials, were to purchase and deploy
equipment, and train personnel as necessary on the items. We reviewed the

                                         11

last two Progress Reports for each grant and compared the supporting
documentation with information submitted in the reports. We found that the
Progress Reports generally reflected actual activity and progress. We also
determined that for those items tested, the expenditure of funds was
reasonable and timely.


Post End Date Activity

      Of the four grants audited, only Grant No. 2009-DJ-BX-0678 had
reached its end date of September 30, 2012, prior to our fieldwork.
According to the OJP Financial Guide, recipients have 90 days after the end
date to close out the award, which would be December 29, 2012. We
reviewed the documentation and found that the Final FFR, the Final Progress
Report, and the required Closeout Report were all submitted timely. There
were no indications of expenditures after the end date or drawdowns
occurring after the grant closeout date.


Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under Grant Nos. 2009-DJ-BX-0678, 2009-SB-B9-0430,
2010-DJ-BX-0509, and 2011-DJ-BX-2448 were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant awards, and to determine program performance and
accomplishments. We reviewed the internal control environment,
drawdowns, grant expenditures, recipient’s monitoring of sub-recipients,
financial and progress reporting, award requirements, program performance
and accomplishments, and post end date activity. In our judgment, the City
of Aurora was in material compliance with the areas we tested and we have
no recommendations.




                                    12

                                                               APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under Grant Nos. 2009-DJ-BX-0678, 2009-SB-B9-0430,
2010-DJ-BX-0509, and 2011-DJ-BX-2448 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of the audit was to examine
performance in the key areas of grant management that are applicable and
appropriate for the grants under review. Depending on the nature of the
grants and manner in which the grant program was implemented, these
areas may include: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) financial
status and progress reports, (6) program performance and accomplishments,
(7) grant closeout activities, (8) property management, (9) matching costs,
(10) program income, (11) monitoring of sub-recipients and contractors, and
(12) special grant requirements. We determined that budget management
and control, matching costs, and program income were not applicable to this
grant audit.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

      This was an audit of the Office of Justice Programs, Bureau of Justice
Assistance, Byrne Memorial JAG grants, awarded to the City of Aurora
(Aurora), Colorado, Grant Nos. 2009-DJ-BX-0678; 2009-SB-B9-0430;
2010-DJ-BX-0509; and 2011-DJ-BX-2448. Our audit concentrated on, but
was not limited to, the earliest award date of May 29, 2009 through
February 20, 2013, the ‘as of date’ for the general ledgers. The City of
Aurora had a total of $2,395,562 in drawdowns through February 11, 2013.

      We tested Aurora’s compliance with what we consider to be the most
important conditions of the grant awards. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide,
the award documents, Code of Federal Regulations, Office of Management
and Budget (OMB) Circulars, and the Recovery Act. Specifically we tested:



                                      13

   •	 Internal Control Environment - to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard grant funds and ensure compliance with the
      terms and conditions of the award.

   •	 Grant Award Drawdowns - to determine whether Aurora’s
      drawdowns were adequately supported and if Aurora was expending
      drawdowns timely.

   •	 Grant Award Expenditures - to determine the accuracy and 

      allowability of costs charged to the grant.


   •	 Monitoring of Sub-recipients and Contractors - to determine
      whether Aurora provided adequate oversight and monitoring of its
      sub-recipients and contractors.

   •	 Federal Financial Reports (FFRs) and Progress Reports - to
      determine whether the required FFRs and Progress Reports were
      submitted in a timely manner and accurately reflect grant activity.

   •	 Award Requirements - to determine whether Aurora complied with
      award guidelines, special conditions, and solicitation criteria;

   •	 Grant Program Performance and Accomplishments - to determine
      whether Aurora has met the grant objectives.

   •	   Post End Date Activity – to determine, for the grant that had ended,
        whether Aurora complied with post end date award requirements.

       In conducting our audit, we performed sample testing for grant
expenditures. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grant reviewed, such as
dollar amounts or expenditure category. We selected a sample of 25
transactions from each of the 4 grants, selecting at least half from the
highest cost items and the remainder selected judgmentally. This
non-statistical sample design does not allow projection of the test results to
the universes from which the samples were selected.

      We also tested for the timeliness and accuracy of financial and Progress
Reports. We judgmentally selected the last four FFRs from each of the four
grants, the last two Progress Reports from each of the four grants, the last
eight PMT reports from all four grants, except for Grant No.
2011-DJ-BX-2448 which only had six PMT reports at the time of our

                                      14

fieldwork, and the last four Recovery Act reports from the Recovery Act Grant
No. 2009-SB-B9-0430. This non-statistical sample design does not allow
projection of the test results to the universes from which the samples were
selected.

       We reviewed the capabilities of Aurora's accounting system,
ONESolution by SunGard, and obtained and reviewed Aurora's Finance
Policies and Procedures; however, we did not test the reliability of the
financial management system as a whole.

       The results of our audit are discussed in detail in the Findings section of
this report. We discussed the results of our audit with the City of Aurora
officials and have included their comments in Appendix II. OJP’s response is
included in Appendix III.




                                       15

                                        APPENDIX II
       AURORA’S RESPONSE TO THE DRAFT REPORT


Cltw 01 Allron




         July 26, 201l



          Mr. OavK\ M . Shccren
          Regional Audit Manager
          Denver Regional Audit Office
          Office ohhe Inspector General.
          U. S. Department of Justice
          1120 Unooln Street
          Suite 1500
          Denver, CO 80203


          Dear Mr. Sheeren,

          On behalf of the City of Auron. we would like to acknowledge the receipt of the Office of the
          Inspector General', audit report. We would alMl like thank you and Robert Tn:her for the
          opportunity to work with you on the audit and for the profes5ionaiism displayed throuahout the
          aud it proceH .

          In our continued commitment 10 improve and ,treamline our internal proceucI, we appreciate
          your iosiahll and ,uasestions. We will review the report', recommendations with the appropriate
          staff and take in to strong consideration implementation of these reoommendation, to improve
          ou r efficiency and effectiveneSi.

          The signed management representation letter is included with our o fficial response u per )'Our
          request.

          Sinc:crely,


       q~Q~
          Jason P. Batchelor
          Finance Director


          Enclosure




                                                     16

                                     APPENDIX III
      OJP’S RESPONSE TO THE DRAFT REPORT

                                                   u.s. Ocparhuut of Julliee



                                                  Offlc~   0/ Aut/il. Ass~ssm~nt. and Manog~tm!nt


                                                  w.-.-,o.c     }OjJ/




ME.MORANDUM TO:               David M . Sheeren
                              Regional Aud it Manager
                              Denver Regional Audit Office
                              Offiee of the Inspector General




SUBJ ECT:
                   -& ~;~~~A. ,I'n~b<Tf}~o/"~
                              Response to the Draft  ~uditReport. Autiil O/Ihe   Offic~
                                                                                  ofJustice
                              Programs. f:dwurd Byrn~ Mumoriul Juslic, Assis/(mc~ Grunl
                              Program. Grants 10 /h, City 0/Aurora. Color(l(lo

This memorandum is in response to your correspondence. dated J uly 16, 20 13. transmitting the
subject draft audit report for the City of Aurora, Colorado. The draft report does not contain any
recommendations. The Office: of Justice Programs has R:v iewcd the draft audit report and docs
not have any commenlll.

We appreciate the opportunity to review and comment on the draft audi t report. If you hove any
questions or requ ire additional information, please contact JelTery A. Haley. Deputy I)irector,
Audi t and Review I)ivision, on (202) 6 16-2936.

ec:    Jeffery A. Haley
       Deputy l) ircetor, Audit and Review Division
       Office of Audit. Assessment, and Management

       Denise O ' Oonncll
       Director
       llurcau of Justice Assistance

       Trocey Troutman
       Ocputy Director for Programs
       Bureau of Justiee Assistance

        Eileen Garry
        Deputy Dirt'Clor
        Bureau of Justiee Assistance




                                              17

cc:   James Simonson
      Budget Director
      Bureau of Justice Assistance

      Amanda LoCicero
      Budget Analyst
      Bureau of Justice Assistance

      Kathy Mason
      Grant Program Spc<:iaiist
      Bureau of Justice Assistance

      Richard P. Theis
      Assistant Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      O1P Executive Secretariat
      Control Number 20131391




                                                2




                                              18

